 

No. 20-1088

 

In The
Supreme Court of the United States

 

DaviD AND AMY CARSON, AS PARENTS AND NEXT FRIENDS OF O.C., ET AL.,
. Petitioners,
Vv.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS COMMISSIONER OF THE MAINE
DEPARTMENT OF EDUCATION, Respondent.

 

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

 

CERTIFICATE OF SERVICE

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.5(b), hereby certifies that one copy of the Amicus Brief of the American Center for Law
and Justice in Support of Petitioners has this day been served upon all parties required to be
served, by first-class mail, postage prepaid, mailed from Washington, DC to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.

Michael Eugene Bindas Sarah Ann Forster

Institute for Justice Office of the Attorney General
600 University Street 6 State House Station

Suite 1730 Augusta, ME 04333

Seattle, WA 98101 (207) 626-8866

(206) 957-1300 sarah.forster@maine.gov

mbindas@ij.org

Counsel for Petitioners Counsel for Respondent

   

it JOMOLLZZ LA
Walter M. Weber

April 7, 2021
